September 23, 2008

RICARDO QUENTAL, JR.
SENIOR PLANT MANAGER, PROVIDENCE PROCESSING AND
 DISTRIBUTION CENTER

SUBJECT: Audit Report – Powered Industrial Vehicle Management System at the
         Providence Processing and Distribution Center
         (Report Number NO-AR-08-010)

This report presents the results of our review of the Powered Industrial Vehicle
Management System (PIVMS)1 at the Providence, Rhode Island Processing and
Distribution Center (P&DC), located in the Northeast Area (Project Number
08XG035NO000). Our objectives were to determine if the PIVMS was functioning as
intended and producing efficiency improvements. This report addresses operational
risk. Click here to go to Appendix A for additional information about this audit.

Conclusion

The Providence P&DC did not always use the PIVMS as intended and consequently did
not fully realize efficiency improvements. By using the PIVMS as intended, we
estimated that management could reduce 4,000 workhours by the end of fiscal year
(FY) 2010, with an associated economic impact of $1.6 million in savings occurring over
10 years. In addition, the Providence P&DC could eliminate five industrial vehicles.

Use of the PIVMS at the Providence P&DC

Although management at the Providence P&DC successfully used the operational
reporting features of the PIVMS, there were opportunities for additional improvements.
The Providence P&DC did not always use the PIVMS to:

    •    Manage equipment operator workhours or overtime.

    •    Schedule and complete preventive maintenance.

    •    Monitor vehicle battery usage.

    •    Identify opportunities to reduce vehicle inventory.
1
 The PIVMS is a wireless system that provides automated measurement, control, and compliance reporting of
operations within a plant, resulting in optimal powered industrial vehicle (PIV) safety conditions, operations,
supervision, and associated savings.
Powered Industrial Vehicle Management System                                                      NO-AR-08-010
 at the Providence Processing and Distribution Center



In addition, although management used the PIVMS to complete Occupational Safety
and Health Administration (OSHA) worksheets and to identify the employee logged into
a vehicle when an accident occurred, they occasionally bypassed some safety and
security features. Click here to go to Appendix B for our detailed analysis of these
issues.

Workhour and Overtime Trends

After the Providence P&DC implemented the PIVMS in March 2006, management did
not realize efficiency improvements. In fact, workhours increased by over 7 percent
after implementation. In addition, overtime in these operations increased by more than
1 percent from FYs 2005 to 2007. Click here to go to Appendix C for our detailed
analysis of this issue.

In contrast, the 20 P&DCs that have had the PIVMS installed for 1 year or longer
reduced workhours by more than 7 percent. Click here to go to Appendix D for our
detailed analysis of this issue.

Causes

Efficiency improvements from the PIVMS did not occur at the Providence P&DC due to
two main factors.

    •   Management did not provide PIVMS training to all employees that needed to use
        the system.

    •   Management was not aware of any established goals or requirements for the
        PIVMS.2

Criteria

The President’s Commission on the United States Postal Service Report, dated July 31,
2003, states that the mission of the Postal Service is “to provide high-quality, essential
postal services to all persons and communities by the most cost-effective and efficient
means possible at affordable and, where appropriate, uniform rates.”

Title 39, United States Code, Part 1, Chapter 4, § 403, states: “The Postal Service shall
plan, develop, promote, and provide adequate and efficient postal services at fair and
reasonable rates and fees.”




2
 We noted that management had not established specific PIVMS goals and targets. We will address this issue in our
capping report.



                                                       2
Powered Industrial Vehicle Management System                                                  NO-AR-08-010
 at the Providence Processing and Distribution Center


The Postal Accountability and Enhancement Act of 2006 emphasizes “. . . the need for
the Postal Service to increase its efficiency and reduce its costs, including infrastructure
costs, to help maintain high quality, affordable postal services. . . .”

Effect

By using the PIVMS as intended, the Postal Service could increase operational
efficiency at the Providence P&DC. We estimated that management could reduce
4,000 mail processing workhours by the end of FY 2009, with an associated economic
impact of $1.6 million in savings occurring over 10 years. Click here to go to Appendix
E for our calculation of funds put to better use.3 In addition, the Providence P&DC could
eliminate five industrial vehicles.4

Management Actions

Management was aware and supportive of the need to achieve an acceptable return on
investment from the PIVMS and has measures in place that should allow continued
improvement. We noted that during FY 2008, workhours used in tow and forklift
operations began to decrease. At our exit conference on July 30, 2008, Providence
P&DC management committed to improve efficiency as well as reduce equipment
inventory by five vehicles.

Recommendations

We recommend the Plant Manager, Providence P&DC:

1. Use the Powered Industrial Vehicle Management System to the fullest extent
   possible to manage operations and continue to improve mail processing efficiency
   by reducing 4,000 workhours in tow and forklift operations by fiscal year 2009, with
   an associated economic impact of $1.6 million in savings occurring over 10 years.

2. Reduce the industrial vehicle inventory by five by the end of fiscal year 2009.

3. Provide Powered Industrial Vehicle Management System training to all employees
   who need to use the system by postal Quarter 2 fiscal year 2009.

Management’s Comments

Management agreed with the recommendations and monetary impact. Management’s
comments, in their entirety, are presented in Appendix F.




3
    Funds that could be used more efficiently by implementing recommended actions.
4
    We will address the costs associated with the vehicle reductions in our capping report.



                                                             3
Powered Industrial Vehicle Management System                                NO-AR-08-010
 at the Providence Processing and Distribution Center


Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should revolve the issues identified in the report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We will report $1,576,086 in funds put to better use in our Semiannual Report to
Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, Director,
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    David E. Williams, Jr.
    Robert M. Koestner
    Katherine S. Banks




                                                   4
Powered Industrial Vehicle Management System                                                           NO-AR-08-010
 at the Providence Processing and Distribution Center



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Providence P&DC is located in the Southeast New England District in the Northeast
Area. The map below shows the Northeast Area districts by three-digit ZIP Code.


  NORTHEAST AREA
  Customer Service Districts


                                                                                              Maine
                                                                                             039-049


                                                New Hampshire/ Vermont
                                                 030-038,050-054,056-059
                           Albany
                       120-123,128-139




    Western New York
         140-149


                                                                             Massachusetts
                                                                              010-019,055

                                                                                Boston
                                                                              021,022,024


                                  Connecticut                              SE New England
                                   060-069                                 020,023,025-029




The Providence P&DC processed over 1 billion first handling pieces (FHP) of mail and
used 1.4 million workhours in FY 2007. The Postal Service owns the Providence P&DC
building and has occupied this facility since January 1961. The building contains
320,959 square feet of interior space on a site with dimensions of 517,569 square feet.

The Providence P&DC implemented the PIVMS on March 3, 2006, at a projected cost
of $230,039. Management justified the purchase based on the following factors:

    1. Elimination of unauthorized use of PIVs.

    2. Reduction of injuries caused by unsafe operation of PIVs.

    3. Reduction of damage to mail and equipment caused by unsafe operation of PIVs.




                                                                 5
Powered Industrial Vehicle Management System                                    NO-AR-08-010
 at the Providence Processing and Distribution Center


    4. Reduction of workhours used to transport mail and equipment throughout the
       plant. Management did not identify specific workhour reductions.

    5. Elimination of three pieces of equipment needed to perform this work.

    6. Reduction of workhours needed to maintain the fleet of PIVs.

This implementation was part of a national contract the Postal Service awarded to I.D.
Systems, Inc. (I.D. Systems) of Hackensack, New Jersey, in January 2005 to produce
and deploy the PIVMS. The Postal Service started the program essentially as a pilot
when it signed a $3.6 million contract with I.D. Systems to implement a wireless asset
management system at 10 bulk mailing and distribution facilities across the country. As
of April 2008, the Postal Service placed orders for PIVMS deployment in 80 facilities.
The total amount funded for the PIVMS as of May 2008 was over $31 million.

The Postal Service intended the PIVMS to provide automated measurement, control,
and compliance reporting of PIV operations within a plant, resulting in optimal PIV
safety conditions, operations, supervision, and associated savings. Some of the major
system design features were:

    •   Ability to conduct two-way text messaging.

    •   Assurance of OSHA safety compliance by only allowing currently certified
        operators to log on and operate specified equipment.

    •   Ability to shut down a vehicle after recording a significant impact, increasing
        safety and accountability.

    • Ability to measure the amount of time an operator is logged into a vehicle and the
      amount of time the vehicle is in motion.

    •   Ability to locate and track vehicles within a plant.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine if the PIVMS was functioning as intended and
improved efficiency. To accomplish these objectives, we observed mail processing
operations and analyzed volume and workhour trends at the Providence P&DC. The
Providence P&DC implemented the PIVMS before the end of FY 2006, so we
benchmarked the Providence P&DC with the 20 sites that had implemented the PIVMS
before the end of FY 2006. We also evaluated the utilization and capacity, staffing
levels, and inventory of powered equipment at the Providence P&DC.

To conduct this audit, we relied on computer-processed data maintained by Postal
Service Operational Systems, which included National Workhour Reporting, Web


                                                   6
Powered Industrial Vehicle Management System                                                NO-AR-08-010
 at the Providence Processing and Distribution Center


Enterprise Information System, Management Operating Data System (MODS), Web-
based Complement Information System, and the Enterprise Data Warehouse.

We did not test the validity of controls over these systems. However, we checked the
accuracy of the data by confirming our analysis and results with Postal Service
managers and other data sources. In addition, we relied on OIG audits of Postal
Service systems; for example, an OIG review of MODS concluded that the data in this
system was valid and reliable for the purposes for which it is intended.5

We conducted this performance audit from June through September 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management on July 30, 2008, and included their comments
where appropriate.

PRIOR AUDIT COVERAGE

We issued a report on the PIVMS use at the Raleigh P&DC on September 15, 2008
(Powered Industrial Vehicle Management System at the Raleigh Processing and
Distribution Center, (Report Number NO-AR-08-007), which reported $3,345,456 in
funds put to better use. We concluded that the Raleigh P&DC did not use the PIVMS
as intended and, consequently, did not fully realize efficiency improvements.




5
    Management Operating Data System (Report Number MS-AR-07-003, dated August 21, 2007).



                                                      7
Powered Industrial Vehicle Management System                                  NO-AR-08-010
 at the Providence Processing and Distribution Center



          APPENDIX B: DETAILED ANALYSIS ON THE USE OF THE PIVMS

We found the Providence P&DC did not always use the PIVMS to:

    •   Manage equipment operator workhours or overtime.

    •   Schedule and complete preventive maintenance.

    •   Monitor vehicle battery usage.

    •   Identify opportunities to reduce vehicle inventory.

In addition, although management used the PIVMS to complete OSHA worksheets, they
occasionally bypassed some safety and security features.

Management of Equipment Operator Workhours

Although management at the Providence P&DC successfully used the operational
reporting features of the PIVMS, there were opportunities for additional improvements.
For example, we reviewed the number of logons to the PIVMS and found only 11 of the
37 mail processing managers and supervisors (29.7 percent) logged in from October 1,
2007, to July 15, 2008. We interviewed supervisors and found they generally accessed
the PIVMS only for tasks such as starting vehicles for employees or locating vehicles
parked in non-designated locations.

We also found that Providence P&DC supervisors did not generally use the PIVMS
reports. The PIVMS reports allow management to monitor and measure vehicle
utilization attributes such as simultaneous vehicle usage, speed, distance traveled, idle
time, motion time, and motion time while carrying or pulling a load in order to assess
productivity.

While Providence P&DC management did not always use the PIVMS reports, in FY
2008 they began using the PIVMS data to create a locally generated report called The
World Series Report. Management used this report — which summarized login hours,
travel hours, travel with load hours, percentage of travel with load, and percentage of
travel by tour — to promote a competition among tours to reduce tow and forklift
workhours. In FY 2008, we found that workhours in tow and forklift operations began to
decrease.

Maintaining Vehicle Equipment and Monitoring Battery Usage

Management at the Providence P&DC did not always use the PIVMS reports to
schedule or ensure completion of preventive maintenance. The PIVMS maintenance
tool enables the user to forecast, schedule, and process preventative maintenance


                                                   8
Powered Industrial Vehicle Management System                                                        NO-AR-08-010
 at the Providence Processing and Distribution Center


events. By using this tool, management could more effectively manage preventive
maintenance of vehicles.

In addition, management did not use the PIVMS battery management system to monitor
battery usage. The purpose of the PIVMS Battery/Charger Administration module is to
extend vehicle battery life and reduce battery inventory.6 Management installed
electronic battery fobs to track battery usage on only 50 percent of PIV batteries at the
Providence P&DC, reducing management’s ability to track battery usage.

However, the Providence P&DC maintenance staff had a good internal control system
in place to control access to batteries. See Illustration 1.




                         Illustration 1: Battery room locked between battery changing
                         periods on June 30, 2008, at 3:31 p.m.

Vehicle Inventory Management

Management did not use the PIVMS to identify opportunities to reduce vehicle
inventory. The number of PIVs at the Providence P&DC remained the same from
March 2006 (when the facility implemented the PIVMS) to July 2008. See Table 1
below.




6
 Industrial batteries provide a maximum return on investment when they are discharged to appropriate levels during
operation and allowed to recharge and cool down during their charge cycles. I.D. Systems’ Fleet Management
System notifies the operator when the battery has discharged sufficiently and should be replaced.



                                                         9
Powered Industrial Vehicle Management System                                          NO-AR-08-010
 at the Providence Processing and Distribution Center



    TABLE 1: POWERED INDUSTRIAL VEHICLES AT THE PROVIDENCE P&DC


                            Powered Industrial Vehicle Inventory
                                    March          July
                                    2006           2008      Increase/Decrease-
                   Forklifts           12               12           0
                     Tows              13               13           0

                    TOTAL              25               25           0

The maximum number of vehicles used simultaneously from November 2006 to May
2008 was 18, indicating a possible surplus of vehicles. In addition, the maximum
number of powered equipment operators scheduled to work simultaneously was only
11. In fact, during our observations on all tours, we often found vehicles idle. See
Illustrations 2, 3, and 4.




                Illustration 2: Five tows and one forklift idle on July 1, 2008, at
                10:44 a.m.




                                                   10
Powered Industrial Vehicle Management System                                         NO-AR-08-010
 at the Providence Processing and Distribution Center




                Illustration 3: Two forklifts idle on June 30, 2008, at 11:07 p.m.




                Illustration 4: Two forklifts and four tows idle on June 30, 2008, at
                5:50 p.m.

During our review, management reviewed equipment needs and agreed to reduce
vehicle inventory by five. We will examine the costs associated with vehicle reductions
in a capping report to Postal Service Headquarters.


                                                   11
Powered Industrial Vehicle Management System                                   NO-AR-08-010
 at the Providence Processing and Distribution Center



Safety and Security Features

Management at the Providence P&DC occasionally bypassed some of the PIVMS
security features designed to ensure compliance with OSHA standards. For example:

    •   One of the PIVMS safety design features only allows currently certified operators
        to log on and operate specified equipment. Providence P&DC supervisors and
        employees sometimes used master badges to start vehicles for operators.

    •   Another PIVMS safety design feature requires the operator to complete an
        electronic OSHA checklist within a prescribed time after logging on to the vehicle.
        We observed that most equipment operators completed the OSHA safety
        checklist at the start of their tour. See Illustration 5.




                                              Redacted




                       Illustration 5: Employee used proper identification
                       and the OSHA checklist to start the tow on June
                       30, 2008, at 3:28 p.m.

    •   Operators sometimes asked a supervisor to bypass the system and start the
        vehicle.

Management used the PIVMS on several occasions to identify the employee logged into
a vehicle when an accident occurred. During our review at the Providence P&DC, we
did not observe unsafe driving practices or accidents. However, we found damage to
the building caused by vehicle impacts. See Illustration 6 below.




                                                   12
Powered Industrial Vehicle Management System                                 NO-AR-08-010
 at the Providence Processing and Distribution Center




                        Illustration 6: On July 2, 2008, at 12:08 a.m., we
                        observed damage to a wall in the Providence
                        P&DC caused by a vehicle impact.

We also found that management did not run or review the PIVMS OSHA compliance
and other compliance exception reports. These reports allow management to track and
monitor OSHA compliance, correct non-compliance, and report OSHA issues to higher
management.




                                                   13
Powered Industrial Vehicle Management System                                                   NO-AR-08-010
 at the Providence Processing and Distribution Center



                    APPENDIX C: VOLUME AND WORKHOUR TRENDS

We reviewed mail volume, workhour, productivity, and complement trends for the
Providence P&DC for FYs 2005 through 2007. From FYs 2005 to 2007, volume at the
Providence P&DC decreased 2.79 percent but mail processing (Function 1) workhours
increased slightly (.99 percent). Consequently, productivity7 declined 3.74 percent.
From FYs 2005 to 2007, workhours used in tow and forklift operations at the Providence
P&DC increased 2.77 percent and overtime used in these operations increased 1.12
percent. In FY 2007, Providence P&DC used 5.81 percent of mail processing
workhours for tow and forklift operations. The number of equipment operators in FY
2007 was 33, a decrease of two operators since FY 2005.

Management implemented the PIVMS at the Providence P&DC on March 3, 2006, but
did not improve efficiency after this implementation. We reviewed tow and forklift
workhours 12 months prior to implementation and 12 months after, and found no
decrease in workhours after implementation. In fact, workhours increased by over 7
percent. See Table 2 below.

                         TABLE 2: PROVIDENCE P&DC TRENDS
                      BEFORE AND AFTER PIVMS IMPLEMENTATION

               PROVIDENCE P&DC PIVMS IMPLEMENTATION DATE - March 3, 2006
          Year Before PIVMS
            Implementation          Year After PIVMS Implementation    Percentage Changes
                         Percentage                         Percentage
                          Tow and                            Tow and
                           Forklift                           Forklift
               Tow and Hours to                   Tow and Hours to                Tow and
    Function 1 Forklift Function 1 Function 1      Forklift Function 1 Function 1 Forklift
      Hours      Hours     Hours      Hours        Hours      Hours      Hours     Hours
    1,368,755   76,629      5.60    1,421,106      82,198      5.78       3.82      7.27




7
 To determine FHP productivity we divided FY 2007 FHP volume by FY 2007 F1 total workhours. Providence's FY
2007 productivity was 744 pieces processed per workhour.



                                                     14
Powered Industrial Vehicle Management System                                  NO-AR-08-010
 at the Providence Processing and Distribution Center


                 APPENDIX D: COMPARISONS TO OTHER FACILITIES

We reviewed volume, workhour, productivity, and complement trends for the P&DCs
that had the PIVMS installed before the end of FY 2006, so there was at least one fiscal
year of data. For the 20 sites meeting these criteria, we reviewed volume, workhour,
and productivity trends from FY 2005 through FY 2007.

From FY 2005 to FY 2007, volume at these sites increased slightly (.95 percent) and
mail processing (Function 1) workhours decreased 6.69 percent. Consequently,
productivity increased 8.19 percent. From FY 2005 to 2007, workhours used in tow and
forklift operations at these sites decreased 10.47 percent and overtime used in these
operations decreased 13.38 percent. In FY 2007, the average site used 5.97 percent of
mail processing workhours in tow and forklift operations. The number of equipment
operators increased 1.92 percent from FY 2005 to FY 2007.

Comparing Providence P&DC to these sites:

    •   From FY 2005 to FY 2007, the average site reduced tow and forklift workhours
        by 10.47 percent. The Providence P&DC ranked number 10 of 20 sites in this
        percentage change comparison.

    •   The average site reduced tow and forklift overtime by 13.38 percent. The
        Providence P&DC ranked number 11 of 20 sites in this percentage change
        comparison.

The average of these 20 sites reduced tow and forklift workhours by 7.03 percent after
implementation, compared to the Providence P&DC’s increase of over 7 percent. See
Table 3 below.

        TABLE 3: PROVIDENCE P&DC TOW AND FORKLIFT WORKHOURS,
                  COMPARED TO OTHER P&DCS WITH PIVMS,
                   BEFORE AND AFTER IMPLEMENTATION

                           12 Months Before             12 Months After   Percentage
                                PIVMS                       PIVMS          Change
Providence P&DC                   76,630                    82,198           7.27
  Average P&DC
                                  113,403                  105,430          -7.03
   with PIVMS




                                                   15
Powered Industrial Vehicle Management System                                  NO-AR-08-010
 at the Providence Processing and Distribution Center


           APPENDIX E: CALCULATION OF FUNDS PUT TO BETTER USE

By using the PIVMS as intended, we estimated that management could reduce 4,000
workhours by the end of FY 2009.

We determined the potential 4,000 workhour savings as follows:

    •   The 20 sites that implemented the PIVMS before the end of FY 2006 had an
        average FHP productivity of 805.
    •   We calculated earned hours for the Providence P&DC to be 1,269,418, using
        FHP productivity of 805.
    •   The 20 sites on average used 5.97 percent of Function 1 workhours in tow and
        forklift operations.
    •   We multiplied 5.97 by the calculated earned hours for the Providence P&DC of
        1,269,418 to determine that earned tow and forklift workhours at the Providence
        P&DC were 75,842.
    •   Providence P&DC used 79,830 workhours in these operations in FY 2007, a
        difference of 3,988 workhours.

Providence P&DC management agreed to a reduction of 4,000 workhours. This
workhour savings has an associated economic impact of $1.6 million (net present value)
in savings over 10 years.

                                 FUNDS PUT TO BETTER USE

                                                                  Timeframe
                                                                10 Fiscal Years
                                                                  Discounted
                                                                   Savings
               Employee Category                    Workhour     (Net Present
                     Impacted                       Reduction       Value)
             Function 1 Mail Processing               4,000       $1,576,086
                Mail Handler Hours

NOTES

    •   We based the 4,000 workhour reduction on management’s plan to reduce
        workhours over a 1-year period, based on FY 2007 usage.
    •   We calculated the cost avoidance using the savings in hours multiplied by the
        escalated labor rate over a 10-year period.
    •   We calculated the net present value using the June 6, 2008, discount rate of 4
        percent over a 10-year period.
    •   We based labor rates on the Postal Service’s May 6, 2008, published rates for a
        level 05 (PS-05) maihandler.



                                                   16
Powered Industrial Vehicle Management System                                   NO-AR-08-010
 at the Providence Processing and Distribution Center


    •   The yearly escalation factor is 2.2 percent, based on the Postal Service’s
        Decision Analysis Factors, effective June 6, 2008.




                                                   17
Powered Industrial Vehicle Management System                NO-AR-08-010
 at the Providence Processing and Distribution Center


                        APPENDIX F: MANAGEMENT’S COMMENTS




                                                   18
Powered Industrial Vehicle Management System            NO-AR-08-010
 at the Providence Processing and Distribution Center




                                                   19
Powered Industrial Vehicle Management System            NO-AR-08-010
 at the Providence Processing and Distribution Center




                                                   20
